No. _________

In the Supreme Court of the United States
GRETCHEN WHITMER, GOVERNOR OF MICHIGAN; JOCELYN BENSON, SECRETARY
OF STATE OF MICHIGAN; JONATHAN BRATER, DIRECTOR OF THE MICHIGAN BUREAU
OF ELECTIONS, IN THEIR OFFICIAL CAPACITIES, APPLICANTS
v.
SAWARIMEDIA L.L.C., ET AL.

APPENDIX D to Emergency Application to Stay the Preliminary Injunction Pending a Merits Decision by the Court of Appeals

Appendix D: The district court’s June 24, 2020 order denying the emergency motion
for stay pending appeal.

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.391

Page 1 of 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SAWARIMEDIA LLC, et al.,
Plaintiffs,

Case No. 20-cv-11246
Hon. Matthew F. Leitman

v.
GRETCHEN WHITMER, et al.,
Defendants.
__________________________________________________________________/
ORDER DENYING DEFENDANTS’ EMERGENCY MOTION FOR A
STAY PENDING EMERGENCY APPEAL (ECF No. 30)
Plaintiff SawariMedia LLC is a civil-rights organization that seeks to place an
initiative on Michigan’s 2020 general election ballot. On June 11, 2020, this Court
enjoined Defendants from keeping SawariMedia’s proposed initiative off the ballot
based on SawariMedia’s inability to collect the required 340,047 signatures by the
May 27, 2020, filing deadline. (See Op. and Order, ECF No. 17.) Defendants have
now moved for an emergency stay of the Court’s preliminary injunction while they
pursue an emergency appeal. (See Mot., ECF No. 30.) Defendants filed their
emergency motion for a stay on the evening of June 23, 2020, and they asked the
Court to rule on that motion by no later than 5:00 p.m. the next day, June 24, 2020.
(See id., PageID.358.) Given the press of time, the Court’s discussion and analysis
below is necessarily truncated. The Court included a full recitation and analysis of
1

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.392

Page 2 of 18

the background facts and controlling law in its Opinion and Order granting
injunctive relief. (See Op. and Order, ECF No. 17, PageID.222-231.) The Court
encourages the reader to begin with that ruling.
For the reasons that follow, Defendants’ motion for an emergency stay is
DENIED.
I
A
SawariMedia “is a coalition of like-minded individuals who work together to
educate and promote their political views in the public arena.” (Decl. of Amani
Sawari, owner and manager of SawariMedia, at ¶2, ECF No. 2, PageID.66.) In the
“summer of 2019,” SawariMedia media began planning to place an initiative on
Michigan’s 2020 general election ballot. (Id. at ¶4, PageID.66.) That initiative seeks
“to allow all [Michigan] prisoners regardless of the date on which they were
sentenced, the right to earn time off their sentences by incentivizing good behavior,
academic and professional achievement.” See http://mprca.info/petition.
Under Michigan law, in order to place the initiative on the 2020 general
election ballot, SawariMedia needed to submit “petitions signed by a number of
registered electors, not less than eight percent … of the total vote cast for all
candidates for governor at the last preceding general election at which a governor
was elected.” Mich. Const., 1963, art. 2, § 9. A total of 4,250,585 votes were cast
2

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.393

Page 3 of 18

in Michigan’s last general election for Governor.1 Thus, SawariMedia needed to
collect 340,047 valid signatures in order to secure a spot for its initiative proposal
on Michigan’s 2020 general election ballot. Under Michigan law, the petitions
containing those signatures had to be filed with the Michigan Secretary of State by
not later than May 27, 2020. See Mich. Comp. Laws § 168.471 (requiring the filing
of initiative petitions with the Secretary of State “at least 160 days before the election
at which the proposed law would appear on the ballot”).
Once signed petitions are filed with the Secretary of State, the Board of State
Canvassers “shall canvass the petitions to ascertain if the petitions have been signed
by the requisite number of qualified and registered [voters].” Mich. Comp. Laws
§ 168.476. The canvassing process also allows interested parties to challenge a
determination made about a signature’s validity. The Board of State Canvassers
must complete their canvass and “shall make an official declaration of the
sufficiency or insufficiency of an initiative petition no later than 100 days before the
election at which the proposal is to be submitted.” Mich. Comp. Laws § 168.477(1).
If the Board of State Canvassers declares that an initiative petition has sufficient
signatures, the Michigan Legislature then has “40 session days” to either “enact[]”
the proposal “without change or amendment” or reject the proposal. Mich. Const.,
1963, art. 2, § 9. “If the Legislature does not enact the proposal within 40 session

1

See https://mielections.us/election/results/2018GEN_CENR.html.
3

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.394

Page 4 of 18

days, the Board of State Canvassers must prepare the proposal for the ballot.”
(Declaration of Defendant Jonathan Brater, Michigan Director of Elections, at ¶11,
ECF No. 7-2, PageID.151-152, citing Mich. Comp. Laws §§ 168.474a, 168.480.)
By early March, SawariMedia appeared to be well on its way to collecting a
sufficient number of signatures to place its initiative on the November 2020 general
election ballot. At that time, it had “collected approximately two-hundred fifteen
thousand (215,000) valid signatures” in support of the initiative – an average of over
22,000 per week. (Sawari Decl. at ¶¶ 3, 7, ECF No. 2, PageID.66-67.) But then, on
March 10, 2020, the Michigan Department of Health and Human Services identified
the first two presumptive-positive cases of the COVID-19 coronavirus in Michigan.2
Governor Whitmer declared a “State of Emergency” that same day. The State of
Emergency executive order recognized that COVID-19 “can easily spread from
person to person” and could “result in serious illness or death.”3 Three days later,
on March 13, 2020, Governor Whitmer closed Michigan’s schools and prohibited

2

See Gov. Whitmer Executive Order 2020-04, Declaration of State of Emergency,
https://www.michigan.gov/whitmer/0,9309,7-387-90499_90705-521576--,00.html.
3

Id.
4

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.395

Page 5 of 18

gatherings of more than 250 people.4 On March 16, 2020, Governor Whitmer closed
various places of public accommodation, such as restaurants, bars, and gyms.5
On March 23, 2020, Governor Whitmer issued what has become known as
the “Stay-at-Home Order.”6 The Stay-at-Home Order, subject to very limited
exceptions, required “all individuals currently living within the State of Michigan
… to stay at home or at their place of residence. Subject to the same exceptions, all
public and private gatherings of any number of people occurring among persons not
part of a single household [were also] prohibited.”7 The Stay-at-Home Order also
provided that “[c]onsistent with [Mich. Comp. Laws §] 10.33 and [Mich. Comp.
Laws §] 30.405(3), a willful violation of th[e] order [was] a misdemeanor.”8
Governor Whitmer subsequently issued several additional executive orders
extending the Stay-at-Home Order beyond the May 27, 2020, filing deadline for
ballot initiative petitions.

4

See Gov. Whitmer Executive Order 2020-5, Temporary Prohibition on Large
Assemblages and Events, Temporary School Closures, https://www.michigan.gov/
whitmer/0,9309,7-387-90499_90705-521595--,00.html.
5

See Gov. Whitmer Executive Order 2020-9, Temporary Restrictions on the Use of
Places of Public Accommodation, https://www.michigan.gov/whitmer/0,9309,7A387-90499_90705-521789--,00.html.

6

See Gov. Whitmer Executive Order 2020-21, Temporary Requirement to Suspend
Activities That Are Not Necessary to Sustain or Protect Life,
https://www.michigan.gov/whitmer/0,9309,7-387-90499_90705-522626--,00.html.
7

Id.

8

Id.
5

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.396

Page 6 of 18

B
SawariMedia insists that Governor Whitmer’s executive orders, and the
enforcement of those orders, “made it impossible” to collect the required number of
signatures by the May 27, 2020, filing deadline. (Sawari Decl. at ¶20, ECF No. 2,
PageID.69.) Thus, on May 4, 2020, SawariMedia and three would-be petition
signers filed this action against Governor Whitmer, Michigan Secretary of State
Jocelyn Benson, and Michigan’s Director of Elections Jonathan Brater.9 (See
Compl., ECF No. 1.) Plaintiffs allege that Defendants’ strict enforcement of the
May 27, 2020, filing deadline and the requirement that SawariMedia collect 340,047
signatures under the present circumstances violates their First and Fourteenth
Amendment rights. (See id. at ¶¶ 49-60, PageID.10-11.) Plaintiffs also moved for a
temporary restraining order and/or preliminary injunction. (See Mot., ECF No. 2.)
The Court held a hearing on Plaintiffs’ injunction motion on June 5, 2020, and
it granted the motion in a written Opinion and Order on June 11, 2020. (See Op. and
Order, ECF No. 17.) In that Opinion and Order, the Court explained that Sixth
Circuit precedent “dictates” that this Court review Plaintiffs’ First Amendment
challenges to Michigan’s signature requirement and filing deadline for ballot

9

As explained in the Court’s Opinion and Order, due to a delay in filing pro se
documents as a result of the COVID-19 pandemic, Plaintiffs’ Complaint was not
posted to the Court’s docket until May 20, 2020.
6

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.397

Page 7 of 18

initiatives “under the Anderson-Burdick framework.”10 Thompson v. DeWine, --F.3d ---, 2020 WL 2702483, at *2 (6th Cir. May 26, 2020). Under AndersonBurdick, a court first determines “the burden [that] the State’s regulation imposes on
the plaintiffs’ First Amendment rights.” Id. Then, if that burden is “severe,” a court
reviews the regulation under strict scrutiny to determine if it is “narrowly drawn to
advance a state interest of compelling importance.” Burdick, 504 U.S. at 434.
In this case, the Court held that “Michigan’s signature requirement and filing
deadline for ballot initiative petitions, in combination with Governor Whitmer’s
Stay-at-Home Order, severely burdened Plaintiffs’ constitutional right to the ballot.”
(Op. and Order, ECF No. 17, PageID.247.) The Court relied heavily on the decision
in Esshaki v. Whitmer, --- F. Supp. 3d ---, 2020 WL 1910154 (E.D. Mich. Apr. 20,
2020). In Esshaki, another Judge of this Court held that Michigan’s filing deadline
and signature requirement for nominating petitions for the United States House of
Representatives in combination with Governor Whitmer’s Stay-At-Home Orders
severely burdened the constitutional rights of candidates seeking to qualify for
Michigan’s primary ballot. See id. The Sixth Circuit affirmed that portion of the
court’s ruling. See Esshaki v. Whitmer, --- F. App’x ---, 2020 WL 2185553 (6th Cir.
May 5, 2020). Echoing Esshaki, this Court explained:

10

See Anderson v. Celebrezze, 460 U.S. 780 (1983); Burdick v. Takushi, 504 U.S.
428 (1992).
7

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.398

Page 8 of 18

Like the plaintiff in Esshaki, the Plaintiffs here faced a
daunting signature requirement with a firm deadline in the
midst of the COVID-19 pandemic. And from March 23,
2020, through May 7, 2020, the Plaintiffs in this action
were subject to the exact same Stay-at-Home Order (and
the extensions of that order) as the plaintiff in Esshaki –
an order that prohibited Michiganders from leaving their
homes except in very limited circumstances. Then, from
May 7 through May 27, 2020 (the petition submission
deadline), the Plaintiffs here were subject to three
additional executive orders that continued to require
Michigan residents to stay in their homes and avoid all
public and private gatherings except as expressly
authorized. Just as in Esshaki, the State “pulled the rug out
from under the ability [of Plaintiffs] to collect signatures”
and “[a]bsent relief, [Plaintiffs’] lack of a viable,
alternative means to procure the signatures [they] need[]
means that [they] face virtual exclusion from the ballot.”
Esshaki, 2020 WL 1910154, at *6. Thus, as in Esshaki,
this burden on Plaintiffs’ First Amendment rights is
severe.
(Op. and Order, ECF No. 17, PageID.238.) The Court then recognized that the
Defendants had compelling interests in enforcing the signature requirement and
filing deadline. (See id., PageID.247.) However, the Court concluded that, as in
Esshaki, “under the current circumstances and as applied to Plaintiffs,” the signature
requirement and filing deadline were not narrowly tailored. (Id.) The Court therefore
“enjoined [Defendants] from excluding Plaintiffs’ ballot initiative from the 2020
general election ballot on the basis that Plaintiffs did not collect 340,047 valid
signatures by the May 27, 2020, filing deadline.” (Id., PageID.255.)

It then

instructed Defendants to “select [their] own adjustments so as to reduce the burden
8

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.399

Page 9 of 18

on ballot access” and “narrow the restrictions” on Plaintiffs in order to “render the
application of the [signature requirement and filing deadline] constitutional under
the circumstances.” (Id., PageID.256, quoting Esshaki, 2020 WL 2185553, at *2.)
C
Defendants filed a notice of proposed remedy on June 18, 2020. (See Notice,
ECF No. 23.) In that proposed remedy, Defendants presented Plaintiffs with two
possible options:
 Defendants would agree to extend the deadline for Plaintiffs to collect and file
340,047 valid signatures in order to appear on the 2020 general election ballot
until July 6, 2020; or
 Defendants would agree to toll the time period by which signatures that
Plaintiffs had collected to date would expire by 79 days, thereby allowing
Plaintiffs an opportunity to qualify for the 2022 ballot without having to start
their signature gathering over from square one.
The Court held an on-the-record telephonic status conference to discuss the
proposed remedy on June 22, 2020, and it rejected both suggested options. (See
6/22/2020 Status Conf. Tr., ECF No. 28; Order Rejecting Proposed Remedy, ECF
No. 25.) The Court rejected both aspects of the proposed remedy for the reasons
explained below.

9

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.400

Page 10 of 18

Defendants have now appealed both (1) the Court’s Opinion and Order
granting Plaintiffs a preliminary injunction and (2) the Court’s rejection of their
proposed remedy. (See Notice of Appeal, ECF No. 26.) They have also filed an
emergency motion for a stay pending appeal in this Court. (See Mot., ECF No. 30.)
II
“A stay is an intrusion into the ordinary processes of administration and
judicial review.” Dodds v. United States Dep’t of Education, 845. F.3d 217, 220 (6th
Cir. 2016) (quoting Nken v. Holder, 556 U.S. 418, 425 (2009)). “To determine
whether to stay the grant of a preliminary injunction, [courts] balance four factors:
the movant’s likelihood of success on appeal; whether irreparable injury to the
movant will result in the absence of a stay; prospective harm to others if a stay is
granted; and the public’s interest in granting a stay.” Id. These are the “the same
factors considered in determining whether to issue a TRO or preliminary injunction.”
Ohio Republican Party v. Brunner, 543 F.3d 357, 361 (6th Cir. 2008).
III
A
The Court begins with whether Defendants are likely to succeed on either
aspect of their appeal. They are not.
As an initial matter, Defendants have not shown that they are likely to prevail
on their appeal of the preliminary injunction. In the Court’s Opinion and Order
10

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.401

Page 11 of 18

granting the injunction, the Court explained at length why the burden on Plaintiffs’
constitutional rights was severe, why the applicable provisions of Michigan law were
not narrowly tailored under these circumstances, and why the remaining factors
favored a grant of injunctive relief. In Defendants’ motion for a stay, they offer very
little argument about, or analysis of, the Court’s reasoning and conclusions. Instead,
they rely on the arguments they presented in opposition to Plaintiffs’ motion seeking
entry of the injunction. The Court rejected those arguments for the reasons stated in
its Opinion and Order, and the Defendants have not shown any error in the Court’s
analysis. Thus, Defendants have not demonstrated that they are likely to succeed in
their appeal of the preliminary injunction.
Next, for two reasons, the Defendants have not shown that they are likely to
prevail on their appeal of the Court’s rejection of their proposed remedy. First, the
Defendants have not cast serious doubt on the Court’s conclusion that the proposed
remedy fails to eliminate the severe burden on Plaintiffs’ constitutional rights.
Simply put, the proposed remedy does not provide Plaintiffs a meaningful or
reasonable opportunity to place their initiative on the 2020 general election ballot.
The proposed remedy gives Plaintiffs only 25 days – not 40 days as Defendants
contend11 – to gather 125,000 signatures.

And during those 25 days, all

As described above, the proposed remedy extends the deadline for Plaintiffs to
collect and file 340,047 valid signatures until July 6, 2020. As Defendants
accurately note, there are 40 days between the previous filing deadline (May 27,

11

11

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.402

Page 12 of 18

Michiganders are subject to continuing restrictions by Governor Whitmer that will
substantially inhibit Plaintiffs’ ability to collect signatures. For instance, while
Governor Whitmer has now rescinded the Stay-at-Home Order, the executive orders
that remain in place still prohibit indoor gatherings of more than 50 people and
outdoor gatherings of more than 250 people.12 Such gatherings are the prime
locations where petition seekers ordinarily gather signatures. The current orders also
restrict the capacity of retail establishments, arcades, bowling alleys, public
swimming pools, concert spaces, race tracks, sports arenas, and other public

2020) and July 6, 2020. But 15 of those days (May 27 – June 11) were after the
original filing deadline and before the Court issued its preliminary injunction.
During those 15 days, it would not have been reasonable for Plaintiffs to have been
collecting signatures.
The Defendants had informed Plaintiffs that they
(Defendants) would not accept for filing any signatures collected after May 27, 2020,
and the Court had yet to issue its injunction. Thus, it would have been entirely
reasonable for Plaintiffs to refrain from collecting signatures during the 15-day
“dead period” between the original filing deadline (May 27) and the entry of the
Court’s injunction (June 11). Indeed, it would have made no sense for them to spend
time and money collecting signatures that the Defendants said they would not accept.
At an absolute minimum, Defendants should not be heard to complain here that
Plaintiffs should have been collecting signatures between May 27 and June 11 when
the Defendants told Plaintiffs prior to that time that Defendants would not accept
such signatures. For all of these reasons, the 15 days between May 27 and June 11
should not reasonably be counted when calculating the true length of the deadline
extension proposed by Defendants.
12

See Gov. Whitmer Executive Order 2020-115, Temporary restrictions on certain
events, gatherings, and businesses, https://www.michigan.gov/whitmer/0,9309,7387-90499_90705-531127--,00.html.
12

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.403

Page 13 of 18

spaces.13 And the orders further provide that “[w]ork that can be performed remotely
(i.e., without the worker leaving his or her home or place of residence) should be
performed remotely.”14 These orders, taken together, substantially limit the number
of people who would ordinarily be in public for recreational and/or employment
purposes, and they thus create a significant barrier to signature collection.
Defendants’ suggestions that Plaintiffs should be able to collect signatures at the
same pace as before the pandemic ignores that these myriad restrictions were not in
place in January and February when Plaintiffs were previously gathering signatures.
For all of these reasons, Defendants’ proposed modest extension of the signature
filing deadline does not give Plaintiffs a reasonable opportunity to qualify their
proposal for the ballot and does not eliminate the severe burden on Plaintiffs’
constitutional rights.
Second, Defendants have not shown error in the Court’s conclusion that their
proposed remedy is not narrowly tailored under the circumstances. For example,
Defendants have not sufficiently demonstrated that they are unable to extend the
signature filing deadline beyond July 6, 2020. Defendants say that they cannot
extend the deadline beyond that date because there are a number of other steps that

13

See id. See also Gov. Whitmer Executive Order 2020-114, Safeguards to protect
Michigan’s workers from COVID-19, https://www.michigan.gov/whitmer/0,9309,
7-387-90499_90705-531123--,00.html.
14

Id.
13

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.404

Page 14 of 18

must take place between the time the initiative petitions are submitted and when
ballots need to be printed for the November general election. But Defendants have
a number of possible options that would permit them to extend the petition
submission deadline and still print the ballots on schedule. Defendants could start
canvassing Plaintiffs’ currently collected 215,000 signatures now, and allow
challenges to those signatures now, instead of waiting to canvass the signatures all
at once after a newly imposed filing deadline. If the Defendants took that route, then
after the new filing deadline (1) the Board of State Canvassers would have far fewer
petitions to review and (2) fewer challenges to signatures would need to be
adjudicated. Since there would be less work to do after the deadline, the deadline
could be further extended. In addition, the amount of time that the Michigan
Legislature has to consider Plaintiffs’ ballot initiative could be reduced below the
currently scheduled 40 session days. As the Court explained in the Opinion and
Order, the Michigan Legislature, during this pandemic, has introduced, considered,
and voted on bills in far less than 40 session days. (See Op. and Order, ECF No. 17,
PageID.248 n.20.) Finally, Defendants could reduce the signature requirement to a
meaningful number that still ensures that a ballot proposal has a modicum of public
support. Indeed, the district court in Esshaki concluded that a remedy that, among
other things, reduced the signature requirement required for candidates to appear on
the 2020 primary ballot, would be narrowly tailored. See Esshaki, 2020 WL
14

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.405

Page 15 of 18

1910154, at *11. The Defendants agreed to reduce the signature requirement in
Esshaki, and they may wish to do the same here.15 (See Esshaki, E.D. Mich. Case
No. 20-cv-10831, at ECF No. 38.)
Finally, the aspect of Defendants’ proposed remedy giving Plaintiffs a
potential route to place their proposal on the 2022 ballot – by extending the life of
signatures they have already obtained16 – is not an effective remedy for the
constitutional violation found by the Court. The Court found that the Defendants
wrongfully excluded Plaintiffs’ proposal from the 2020 ballot. Giving Plaintiffs a
shot at getting their proposal on a later ballot does nothing to alleviate the damage
from their wrongful exclusion from the current ballot. Moreover, this aspect of
Defendants’ proposed remedy offers Plaintiffs very little because, even without
15

In Defendants’ stay motion, they argue that “the Court abused its discretion in
ordering [a] signature reduction because it went beyond what was necessary to
alleviate Plaintiffs’ burden as alleged under the circumstances.” (Mot., ECF No. 30,
PageID.380-381; emphasis added.) But the Court has never ordered a signature
reduction. The Court’s Opinion and Order granting the injunction specifically said
that the Court was not mandating any particular remedy. (See Op. and Order, ECF
No. 17, PageID.255-256.) And while the Court rejected Defendants’ most recent
proposed remedy, the Court did not state that an effective remedy had to include a
signature reduction. Reducing the number of signatures Plaintiffs are required to
collect is simply one option Defendants could employ in order to alleviate the
violation of Plaintiffs’ constitutional rights.
16

While the Michigan Court of Claims ordered this remedy in a case involving a
similar challenge (under state law) to Michigan’s ballot access requirements for
initiative proposals, see Fair and Equal Michigan v. Benson, Mich. Ct. Claims Case
No. 20-000095 (June 6, 2020), that court did not find the same constitutional
violation found by this Court. That the Court of Claims chose this remedy thus sheds
little light on whether the remedy is proper here.
15

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.406

Page 16 of 18

Defendants’ proposal, Plaintiffs would have a full opportunity to get their proposal
on the 2022 ballot. Defendants’ suggestion that Plaintiffs try for the 2022 ballot is
simply not a sufficient remedy.
For all of these reasons, the Court concludes that Defendants have not shown
a likelihood of success on their appeal of either (1) the Court’s injunction or (2) the
Court’s rejection of their proposed remedy.
B
The Court is not persuaded that any of the other factors favor a stay.
Defendants argue that “[w]hile there will be no irreparable harm to the Plaintiffs
without an injunction, the issuance of an injunction will irreparably harm the State
and its citizens.” (Mot., ECF No. 30, PageID.383.) Defendants insist that:
Either the Sixth Circuit agrees that the injunction was
unwarranted or the State Defendants’ remedy was
sufficient, or the Sixth Circuit upholds the injunction. If
the Sixth Circuit finds that injunctive relief was not
warranted, then Plaintiffs will be not harmed by staying an
injunction to which they are not entitled. Or, if Sixth
Circuit decides that the Defendants’ proposed relief was
sufficient, then the relief offered by the Defendants will be
available to Plaintiffs without interference by the stay. On
the other hand, if the Sixth Circuit decides that an
injunction was appropriate and the proposed relief was
insufficient, then the Defendants will likely be required to
propose a different remedy that allows Plaintiffs another
opportunity to access the November 2020 ballot. In any of
these outcomes, Plaintiffs will not be inconvenienced by a
temporary stay pending the determination of the appeal.
(Id., PageID.385.)
16

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.407

Page 17 of 18

But a stay would subject Plaintiffs to irreparable harm here. Plaintiffs need to
know precisely how many signatures they need to gather and how many days they
have to collect those signatures as quickly as possible so that they can best marshal
their resources. As described above, there are still significant restrictions in place
on the movement of Michiganders that will make for a very difficult signaturegathering environment. Any period of uncertainty will make it more difficult for
Plaintiffs to access the 2020 general election ballot. And depending on the length of
a stay, and the length of Defendants’ appeal, the Court may or may not be able to
remedy that harm given the other procedural steps that must be taken before ballots
are printed.
In addition, for all of the reasons stated in the Opinion and Order, the Court
remains persuaded that the public interest would not be served by a stay. As the
Court explained, “‘[t]he broader public interest [would] not [be] served by
preserving the current signature-gathering scheme’ which would have forced
‘supporters [of ballot initiatives] to risk their health and criminal penalties to gather
signatures.’ [] Moreover, absent relief, Michigan voters would ‘lose the ability’ to
vote for a ballot initiative that, ‘absent the pandemic, would have [likely] been
included on the ballot.’ Id. For all of these reasons, the harm to the public and the
Plaintiffs outweighs the State’s legitimate interest in enforcing its election laws in
the manner and timeframe established prior to the COVID-19 pandemic.” (Op. and
17

Case 4:20-cv-11246-MFL-MJH ECF No. 32 filed 06/24/20

PageID.408

Page 18 of 18

Order, ECF No. 17, PageID.254, quoting Esshaki, 2020 WL 1910154, at *9.) The
same reasoning applies to Defendants’ motion for a stay.
IV
For all of these reasons, Defendants have not persuaded the Court that they
are entitled to a stay of the Court’s preliminary injunction. Defendants’ motion for
a stay pending appeal (ECF No. 30) is therefore DENIED.
IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: June 24, 2020
I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on June 24, 2020, by electronic means and/or
ordinary mail.
s/Holly A. Monda
Case Manager
(810) 341-9764

18

